CERTIFICATE OF SERVICE
I Charles L. stringer, pro se do hereby certify that I have served corrected copy
of the foregoing pleading via United States mail to the following person:
Hon. Dewayne Thomas
Chancery Court Judge
316 E. Silas Brown Street
Jackson, MS 39201

Patricia D. Wise
Chancery Court Judge
316 E. Silas Brown Street
Jackson, MS 39201

Hon. Christopher J. Weldy
Attorney at Law
105 North College Street
Jackson, MS 39042

This the 26th,, day of February 2021.
Respectfully Submitted

Charles L/stringer, Pro Se
Paralegal/ Legal Assistant
136 Kimbrough Drive
Jackson, MS 39204
(601)373-3656

